TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Better Adherence to Requirements
                        Is Needed to Justify and Document
                         Noncompetitive Contract Awards



                                           April 30, 2014

                              Reference Number: 2014-10-030




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                      HIGHLIGHTS


BETTER ADHERENCE TO                                      requirements mandated by the FAR. Eight of
REQUIREMENTS IS NEEDED TO                                25 forms justifying awards for these contracts
JUSTIFY AND DOCUMENT                                     either did not include sufficient information or
NONCOMPETITIVE CONTRACT                                  were not adequately supported and therefore did
                                                         not meet FAR requirements permitting other
AWARDS
                                                         than full and open competition.
                                                         Finally, three contracts totaling $14.9 million
Highlights                                               were improperly coded within the Federal
                                                         Procurement Data System–Next Generation.
Final Report issued on April 30, 2014                    These contracts were incorrectly recorded as
                                                         being awarded noncompetitively because they
Highlights of Reference Number: 2014-10-030              were under the dollar threshold of $150,000,
to the Internal Revenue Service Deputy                   when the actual award amounts were not under
Commissioner for Operations Support.                     the threshold.

IMPACT ON TAXPAYERS                                      WHAT TIGTA RECOMMENDED
One of the goals of Federal contracting is to            TIGTA recommended that the Deputy
promote competition when buying goods and                Commissioner for Operations Support should
services. Awarding noncompetitive contracts              use the results of these 35 contract cases to
without the proper justifications and approvals          reemphasize to IRS program office and
could result in procurement of products or               procurement office personnel the need to
services at a higher cost, resulting in inefficient      obtain proper approval, adequately justify
use of taxpayer funds.                                   noncompetitive awards, and fully address FAR
                                                         requirements prior to solicitation and award. In
WHY TIGTA DID THE AUDIT                                  addition, the Chief, Agency-Wide Shared
Our objective was to determine whether the IRS           Services, should use TIGTA’s contract review
is in compliance with Federal Acquisition                results to enhance periodic oversight reviews of
Regulation (FAR) requirements and other                  contract files and should verify that contracts are
applicable authorities for noncompetitive                properly coded within the Federal Procurement
contract awards.                                         Data System–Next Generation.
                                                         In their response, IRS management agreed with
WHAT TIGTA FOUND
                                                         our recommendations and plans to issue a
TIGTA determined that the IRS is generally in            communication to IRS employees on the need to
compliance with FAR requirements and other               obtain proper approval to adequately justify
applicable authorities for the majority of the           noncompetitive awards and follow appropriate
noncompetitive contract awards reviewed.                 FAR requirements prior to solicitation and
However, 15 of 35 contracts reviewed by TIGTA            contract awards. In addition, the IRS plans to
did not comply with all of the requirements for          review the results of the 35 contract cases and
noncompetitive awards.                                   determine where increased focus is necessary
                                                         in periodic reviews of contract files to ensure
TIGTA found that contracting officers obtained           contracting officer compliance with FAR
approval for noncompetitive contracts from the           requirements for noncompetitive contracts.
appropriate officials within the time frames             Finally, the IRS stated that the Office of
required for 30 of the 35 contracts reviewed.            Procurement was provided with the list of the
However, for seven of 35 contracts, the award            Federal Procurement Data System–Next
was not properly justified because the                   Generation entries in question and that
responsible contracting officer did not                  corrections were made where appropriate.
adequately explain why there was only one
capable source available to fulfill the
requirement. Further, 25 of the contracts TIGTA
reviewed required documentation of 12 content
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            April 30, 2014


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT




 FROM:             (for)     Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Better Adherence to Requirements Is Needed to
                             Justify and Document Noncompetitive Contract Awards
                             (Audit # 201310022)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is in compliance with Federal Acquisition Regulation requirements and other applicable
 authorities for noncompetitive contract awards. This review is included in the Treasury
 Inspector General for Tax Administration’s Fiscal Year 2014 Annual Audit Plan and addresses
 the major management challenge of Fraudulent Claims and Improper Payments.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Gregory D. Kutz,
 Assistant Inspector General for Audit (Management Services and Exempt Organizations).
                                Better Adherence to Requirements Is Needed to
                             Justify and Document Noncompetitive Contract Awards




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 7
          Approvals for the Selected Contracts Were Timely
          Obtained From the Appropriate Officials ..................................................... Page 7
          Some Justifications Were Inadequate for the Authority
          Permitting Other Than Full and Open Competition Cited ............................ Page 8
          Required Content Elements Were Missing From
          Justification Documents for the Selected Contracts ..................................... Page 8
                    Recommendation 1:........................................................ Page 11

                    Recommendation 2:........................................................ Page 12

          Contract Data Were Miscoded in the Federal Procurement
          Data System. ................................................................................................. Page 12
                    Recommendation 3:........................................................ Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Outcome Measures............................................................... Page 17
          Appendix V – Federal Acquisition Regulation 6.303-2 .............................. Page 19
          Appendix VI – Management’s Response to the Draft Report ..................... Page 21
             Better Adherence to Requirements Is Needed to
          Justify and Document Noncompetitive Contract Awards




                     Abbreviations

CO             Contracting Officer
FAR            Federal Acquisition Regulation
FPDS–NG        Federal Procurement Data System–Next Generation
FY             Fiscal Year
IRS            Internal Revenue Service
JOFOC          Justification for Other Than Full and Open Competition
SBS            Small Business Specialist
TIGTA          Treasury Inspector General for Tax Administration
                            Better Adherence to Requirements Is Needed to
                         Justify and Document Noncompetitive Contract Awards




                                             Background

One of the goals of Federal contracting is to promote competition when buying goods and
services. The Competition in Contracting Act of 19841 required, with limited exceptions, that
contracting officers (CO) promote and provide for full and open competition in soliciting offers
and awarding U.S. Government contracts. Full and open competition is desirable because it can
result in quality products and services at reasonable costs, deter abusive procurement practices,
and improve contractor performance.2
Contracting without full and open competition is a violation of statute3 unless permitted by one
of the seven authorities outlined in the Federal Acquisition Regulation (FAR).4 Generally,
noncompetitive contracts must be supported by written justifications and approvals that address
the specific authority permitting other than full and open competition. The FAR5 lists the
following seven authorities that permit other than full and open competition for awards greater
than $150,000 (above the simplified acquisition threshold):6
        Only one responsible source and no other supplies or services will satisfy agency
         requirements.
        Unusual and compelling urgency.
        Industrial mobilization; engineering, development, or research capability; or expert
         services.
        International agreement or treaty.
        Authorized or required by statute.
        National security.
        Public interest.
A CO must not initiate negotiations for or award a noncompetitive contract unless the CO
justifies the use of such action in writing, certifies the accuracy and completeness of the
justification, and obtains approval of the justification from the appropriate official or officials.

1
  41 U.S.C. § 253.
2
  Contracting officials, program office staff, and contractors may improperly seek to reduce the level of competition
on an award in order to gain an advantage and direct the award to a specific favored contractor.
3
  10 U.S.C. § 2304.
4
  48 C.F.R. pts. 1–53. The FAR was established to codify uniform policies for acquiring supplies and services by
executive agencies.
5
  FAR 6.302, Circumstances permitting other than full and open competition.
6
  Contracts below the simplified acquisition threshold are permitted by the first three authorities listed.
                                                                                                              Page 1
                           Better Adherence to Requirements Is Needed to
                        Justify and Document Noncompetitive Contract Awards



The FAR7 requires that each justification contain sufficient facts and rationale to justify the use
of one of the seven specific authorities permitting other than full and open competition. A
complete list of the information required by the FAR for inclusion in the justification is listed in
Appendix V.
From Fiscal Year8 (FY) 2010 through FY 2013, the Internal Revenue Service (IRS) obligated
approximately $7.3 billion in awards to Federal contractors, of which approximately $2.3 billion
(32 percent) was not awarded through full and open competition. Figure 1 provides a breakdown
of total contract dollars that were awarded by fiscal year.
                       Figure 1: Total Contract Dollars by Fiscal Year 9




     Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of IRS Office of
     Procurement data.


7
  FAR, 6.303-2, Content.
8
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
9
  Although COs are required to categorize contract actions by whether they were competitively awarded,
approximately $60 million in awards between FYs 2010 and 2013 were not categorized. We removed these awards
from Figure 1; however, this $60 million is included in the $7.3 billion total. These awards represent less than
1 percent of the total value of contracts during this period. Contracts awarded through certain small business
programs, such as the HubZone Program and the Service Disabled Veteran Owned Small Business Program, would
be considered noncompetitive if the award was made directly as a sole-source contract to one firm. However, if the
IRS limited competition to a group of such small business companies, then these awards would be classified as
competitively awarded.
                                                                                                           Page 2
                           Better Adherence to Requirements Is Needed to
                        Justify and Document Noncompetitive Contract Awards



The $7.3 billion in IRS awards from FYs 2010 through 2013 were accomplished through
66,227 contract actions, of which 36,753 (55 percent) were not competitively awarded. Figure 2
provides a breakdown of total contract actions that were awarded by fiscal year.
                      Figure 2: Total Contract Actions by Fiscal Year 10




     Source: TIGTA analysis of IRS Office of Procurement data.

IRS contracting personnel are required to use the Justification for Other Than Full and Open
Competition (JOFOC) form to document compliance with FAR requirements.11 The original
copy of the approved JOFOC must be retained in the official contract file. Awards of $150,000
or less (below the simplified acquisition threshold) do not require a formal JOFOC; however, a
written justification, in memorandum form, must provide clear and convincing evidence to
support the exemption authority for other than full and open competition.12 The IRS Small
Business Specialist (SBS) is required to review and sign all justifications for contracts greater
than $25,000.

10
   Although COs are required to categorize contract actions by whether they were competitively awarded,
approximately 771 contract actions were not categorized between FYs 2010 and 2013. We removed these
771 awards from Figure 2; however, these 771 are included in the 66,227 total. These awards represent
approximately 1 percent of the total number of contracts awarded during this period.
11
   The JOFOC is also known as Treasury Form TDF 76-01.6, Justification for Other Than Full and Open
Competition. Use of the JOFOC is required by Department of the Treasury Acquisition Procedures as well as IRS
Policy and Procedures Memorandum 6.3, Justification for Other than Full and Open Competition.
12
   Awards of $150,000 or less (below the simplified acquisition threshold) do not require additional approvals
beyond the approval of the responsible CO.
                                                                                                         Page 3
                           Better Adherence to Requirements Is Needed to
                        Justify and Document Noncompetitive Contract Awards



Contracts valued at greater than $150,000 require additional levels of approval as they increase
in value. Figure 3 depicts the various approval levels required by JOFOC dollar amount.
             Figure 3: JOFOC Approval Levels Required by Dollar Amount
                                                                                                  Senior
                                                           Competition        Director of      Procurement
     Award Value           CO                SBS            Advocate         Procurement        Executive
≤ $650,000                                   
> $650,000                                                     
> $12,500,000                                                                   
> $62,500,000                                                                                    
Source: IRS Policy and Procedures Memorandum 6.3 and FAR 6.304, Approval of the justification.

Significant risks are present when noncompetitive procurement requirements are not adhered to.
To ensure that the IRS gets the most competitive price for goods and services, the CO should
solicit offers from as many potential sources as possible in order to make them aware of the
contract opportunities. COs, program office staff, and contractors may potentially seek to
improperly reduce the level of competition on an award in order to gain an advantage and direct
the award to a specific favored contractor. Without proper oversight and controls,
noncompetitive contract awards put the IRS at risk for fraudulent, abusive, and wasteful
spending and for noncompliance with the applicable authorities.
From the Federal Procurement Data System–Next Generation (FPDS–NG), we obtained a
population of new IRS contract awards made from October 1, 2010, through May 31, 2013. We
determined the number and dollar amount of contracts that were noncompetitively awarded.
Because of limitations in the reliability of FPDS–NG data, we excluded 33 contracts from the
scope of our review. Specifically, for these 33 contracts, the FPDS–NG system showed the
contract as being both over $150,000 in amount (in the contract award amount field) and under
the $150,000 simplified acquisition threshold (in the extent competed field),13 both of which
could not be accurate. Because there are different controls and processes in place for
noncompetitive contracts above and below this $150,000 threshold, we could not rely on this
data to select cases of each. However, we did review three of the 33 contract files and found that
these contracts totaling $14.9 million were improperly coded as being below the $150,000
threshold.
Further, we determined that the JOFOC form was not required for some cases because the
contracts were awarded through special contracting programs, such as the Ability One Program


13
  The “extent competed” field documents the reason for awarding the contract action without full and open
competition.
                                                                                                            Page 4
                            Better Adherence to Requirements Is Needed to
                         Justify and Document Noncompetitive Contract Awards



and the 8(a) Program. In these situations, we replaced these contracts in our sample with
contracts noncompetitively awarded during our review period that did require the use of the
JOFOC.
We reviewed a total of 35 noncompetitive contract awards (25 awards above the simplified
acquisition threshold and 10 awards below the simplified acquisition threshold).14 A stratified
random sample of 25 files for awards above the simplified acquisition threshold was selected to
represent a cross-section of FAR exemption and approval categories. A nonrepresentative
selection15 of 10 contract files below the simplified acquisition threshold was also reviewed.
Award values for these 35 noncompetitive awards ranged from a low of $3,137 to a high of
$65.2 million. Figure 4 provides details on the type of goods and services obtained through these
awards.
      Figure 4: Types of Goods and Services Obtained for the Contracts Reviewed
 Type of Contract Good or Service16                                                                        Number
 Administrative and Support and Waste Management and Remediation Services                                       1
 Finance and Insurance                                                                                          1
 Public Administration                                                                                          1
 Real Estate and Rental and Leasing                                                                             1
 Manufacturing                                                                                                  2
 Other Services (except Public Administration)                                                                  2
 Utilities                                                                                                      4
 Educational Services                                                                                           5
 Information                                                                                                    6
 Professional, Scientific, and Technical Services                                                              12
                                                                                                   Total       35
     Source: TIGTA analysis of FPDS–NG data.

14
   Although our sample of 25 of the population was randomly selected within the various strata we identified, we are
not projecting the results of our analysis to the entire population of noncompetitive contracts awarded during our
audit period because the sample size was not large enough.
15
   A nonrepresentative selection is a nonstatistical selection, the results of which cannot be used to project to the
population.
16
   These awards are categorized based on the North American Industry Classification System code assigned by IRS
procurement personnel. The North American Industry Classification System was developed as the standard for use
by Federal statistical agencies in classifying business establishments for the collection, tabulation, presentation, and
analysis of statistical data describing the U.S. economy.
                                                                                                                Page 5
                       Better Adherence to Requirements Is Needed to
                    Justify and Document Noncompetitive Contract Awards



We held discussions with personnel and analyzed data obtained from the Agency-Wide Shared
Services Office of Procurement in Oakland, California; Atlanta, Georgia; Oxon Hill, Maryland;
New York, New York; and Farmers Branch, Texas, during the period May 2013 through
January 2014. The focus of our review was to determine whether or not the IRS was in
compliance with FAR requirements and other applicable authorities for the 35 noncompetitive
contract awards we reviewed. We did not review for abusive procurement practices, such as
whether COs or program office staff were directing noncompetitive contracts to favored vendors
or were engaged in other types of improper procurement activities.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information about our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




                                                                                          Page 6
                           Better Adherence to Requirements Is Needed to
                        Justify and Document Noncompetitive Contract Awards




                                      Results of Review

Approvals for the Selected Contracts Were Timely Obtained From the
Appropriate Officials
Thirty (86 percent) of the 35 contracts we reviewed contained documentation that appropriate
approvals were obtained prior to contract award.17 The FAR requires that justifications be
approved at various levels according to the dollar value of the contract. In two cases, contracts
below the simplified acquisition threshold were not signed by the CO. A third contract below
the simplified acquisition threshold required approval by the SBS because the contract value
exceeded $25,000, but this approval was not obtained. When we asked these COs why they did
not formally sign the justification documentation and the SBS signature was not obtained, we
were told that it was due to an oversight on their part.
The fourth contract, which was above the simplified acquisition threshold, required approval by
the CO and the SBS; however, the SBS did not approve the JOFOC. In this instance, the CO did
not use the proper JOFOC form, which includes a specific signature block for the SBS. For the
fifth contract, which was also above the simplified acquisition threshold, the documentation did
not include approval by the SBS and Competition Advocate, both of which were required. We
could not determine the cause of the lack of appropriate approval in this case. Without proper
approval, these awards are not fully justified and did not fully comply with the FAR and IRS
policy. Figure 5 shows the details of the five contracts that did not have the proper approvals.
                          Figure 5: Contract Approvals Not Obtained
                                                                                                   Senior
                                                            Competition        Director of      Procurement
     Contract               CO                  SBS          Advocate         Procurement        Executive
         1            Not obtained                                                          
         2            Not obtained                                                          
         3                               Not obtained                                         
         4                              Not obtained                                      
         5                               Not obtained      Not obtained                          
Source: TIGTA analysis of IRS contract files.



17
  We reviewed a stratified random sample of 25 awards out of a universe of 282 awards above the simplified
acquisition threshold of $150,000 and a nonrepresentative selection of 10 awards at or below the simplified
acquisition threshold based on specific risk factors. We did not make projections based on our results.
                                                                                                              Page 7
                              Better Adherence to Requirements Is Needed to
                           Justify and Document Noncompetitive Contract Awards



Some Justifications Were Inadequate for the Authority Permitting
Other Than Full and Open Competition Cited
Seven (20 percent) of the 35 contract files we reviewed did not contain adequate justification of
the exception authority permitting other than full and open competition. These seven were for
awards totaling $76,287. While many of the justifications we reviewed contained clear
descriptions of why only one source was available to meet the IRS’s needs, we observed that
justifications for lower dollar awards contained fewer facts and rationale than higher dollar
awards. These lower dollar awards require approval by COs, in contrast to higher dollar awards,
which can require additional approvals by competition advocates and/or procurement executives,
depending on the dollar value of the award.
The seven awards we identified that did not contain specific facts and rationale to justify that
only one source was reasonably available were all below the simplified acquisition threshold of
$150,000. For purchases not exceeding the simplified acquisition threshold, the FAR permits
COs to solicit from one source if the CO appropriately determines that there is only one source
reasonably available. While these seven contracts did contain information regarding the
contractors’ qualifications and price reasonableness, contract file documentation failed to clearly
explain why these vendors were the only source available.
When we discussed this with the COs responsible for these justifications, they generally agreed
that the justifications themselves should have contained additional support to document why the
specified contractors were the only source reasonably available. Without documenting why
these contractors were the only source available, these awards are not fully justified and
therefore did not fully comply with the FAR.

Required Content Elements Were Missing From Justification
Documents for the Selected Contracts
Eight (32 percent) of 25 contracts above the simplified acquisition threshold did not comply with
one or more of the 12 content requirements18 outlined in the FAR.19 The required JOFOC form is
designed to mirror the 12 content requirements outlined in the FAR. Awards below the
simplified acquisition threshold do not require the CO to formally address these 12 content
requirements; therefore, the 10 awards we reviewed below the threshold were not included in
this specific analysis.




18
     See Appendix V for a list of the 12 content requirements.
19
     FAR 6.302-3, Content.
                                                                                             Page 8
                             Better Adherence to Requirements Is Needed to
                          Justify and Document Noncompetitive Contract Awards



All 25 contracts we reviewed adequately addressed the first six content elements required by the
FAR. Those elements are as follows:
        Identification of the agency and the contracting activity and specific identification of the
         document as a “justification for other than full and open competition.”
        Nature and/or description of the action being approved.
        Description of the supplies or services required to meet the agency’s needs (including the
         estimated value).
        Identification of the statutory authority permitting other than full and open competition.
        Demonstration that the proposed contractor’s unique qualifications or the nature of the
         acquisition requires use of the authority cited.
        Description of efforts made to ensure that offers are solicited from as many potential
         sources as is practicable, including whether a notice was or will be publicized as required
         by FAR Subpart 5.2 and, if not, which exception under FAR Subpart 5.202 applies.
However, we found that for eight (32 percent) of the 25 JOFOCs contained in the contract files
reviewed, COs inadequately addressed one or more of the remaining content requirements or
omitted required information when preparing the JOFOC. These eight were for awards totaling
$13.1 million. Specifically, six JOFOCs inadequately addressed one content element, one
inadequately addressed two elements, and one inadequately addressed three elements. Figure 6
provides details on the content requirements that were missing from contract documentation.
           Figure 6: Content Requirement Elements Missing in Contract Files

         Content Requirement                                             Noncompliance Details
Determination by the CO that the anticipated cost    Three contracts did not adequately address this requirement.
to the Government will be fair and reasonable.       Although there were statements that the CO would determine that the
                                                      anticipated cost would be fair and reasonable, either the price
                                                      determination was not completed or it was not documented; therefore,
                                                      we determined that documentation was not adequate to address this
                                                      requirement.

Description of the market research conducted and     Two contracts did not adequately address this requirement.
the results or a statement of the reason market
                                                     No documentation of market research was found in the contract file or
research was not conducted.
                                                      through subsequent follow-up requests to the IRS.
                                                     In one case, the CO who awarded this contract was no longer working
                                                      at the IRS; therefore, the reason for the absence of market research
                                                      could not be determined.
                                                     In the other case, the CO told us that the lack of adequate and sufficient
                                                      market research documentation in the contract file was due to an urgent
                                                      need to award the contact coupled with the IRS clearly knowing that
                                                      the contractor could provide third-party goods and services at a
                                                      discounted cost due to past experiences working with the contractor.


                                                                                                                        Page 9
                               Better Adherence to Requirements Is Needed to
                            Justify and Document Noncompetitive Contract Awards




          Content Requirement                                             Noncompliance Details
Any other facts supporting the use of other than       Two contracts did not address this requirement.
full and open competition, such as:
                                                       The Treasury JOFOC form or corresponding IRS guidance does not
i.   Explanation of why technical data packages,        specifically identify this FAR requirement language. As a result, this
     specifications, engineering descriptions,          element was incomplete or required data were omitted. These awards
     statements of work, or purchase descriptions       were both follow-on acquisitions; however, the file contained no
     suitable for full and open competition have        documentation as to the cost to the IRS that would be duplicated (if a
     not been developed or are not available.           contract was awarded to a new vendor).
ii. When FAR 6.302-1 is cited for follow-on
                20
    acquisition as described in FAR 6.302-
    1(a)(ii), an estimate of the cost to the
    Government that would be duplicated and
    how the estimate was arrived.
iii. When FAR 6.302-2 is cited, data, estimated
     cost, or other rationale as to the extent and
     nature of the harm to the Government.

Listing of the sources, if any, that expressed, in     One contract did not address this requirement.
writing, an interest in the acquisition.
                                                       The responsible CO has retired and the IRS could not provide an
                                                        explanation as to why this requirement was not adequately addressed.

Statement of the actions, if any, the agency may       Two contracts did not address this requirement.
take to remove or overcome any barriers to
                                                       In one case, the CO did not use the official JOFOC form, which
competition before any subsequent acquisition for
                                                        contains template language to address this requirement. The informal
the supplies or services required.
                                                        alternative JOFOC that was substituted did not contain this language.
                                                       In the other case, the CO has retired and the IRS could not provide an
                                                        explanation as to why this requirement was not addressed.

CO certification that the justification is accurate    One contract did not address this requirement.
and complete to the best of the CO’s knowledge
                                                       The CO did not use the official JOFOC form, which contains template
and belief.
                                                        language to address this requirement. The alternative JOFOC that was
                                                        developed did not contain this language or a signature block.

Source: TIGTA’s review of 25 contract files.

Each of these content requirements is mandatory for contracting without providing for full and
open competition. Because eight JOFOC forms either did not include sufficient information or
were not completed, they were not compliant with the FAR requirements for permitting other
than full and open competition.
We determined that the Treasury JOFOC form used by the IRS is designed in such a way that it
may have contributed to the COs’ omission of required data for one of the FAR content
requirements. In general, the JOFOC form mirrors the 12 content requirements word for word.
However, for one of the content elements, the information required by the FAR is more specific


20
  A follow-on acquisition is an award that is issued to the same contractor or subcontractor for the same item or
services as a preceding contract.
                                                                                                                       Page 10
                         Better Adherence to Requirements Is Needed to
                      Justify and Document Noncompetitive Contract Awards



than the information asked for in the JOFOC form. Figure 7 compares the documentation
required by the FAR in comparison to the corresponding JOFOC language.
       Figure 7: Comparison of Language in the FAR and the JOFOC

                   FAR Requirement                                  JOFOC Language
 Any other facts supporting the use of other than full     Describe any other documentation to
 and open competition, such as:                            support the JOFOC.
 (i) Explanation of why technical data packages,
 specifications, engineering descriptions, statements
 of work, or purchase descriptions suitable for full
 and open competition have not been developed or
 are not available.
 (ii) When FAR 6.302-1 is cited for follow-on
 acquisitions as described in FAR 6.302-1(a)(2)(ii),
 an estimate of the cost to the Government that
 would be duplicated and how the estimate was
 derived.
 (iii) When FAR 6.302-2 is cited, data, estimated
 cost, or other rationale as to the extent and nature of
 the harm to the Government.
Source: TIGTA’s review of the FAR and JOFOC form.

As a result of this inconsistency, in two instances we found that this element was incomplete or
that required data were omitted. When we spoke with COs regarding this section of the JOFOC,
they were not knowledgeable of the underlying FAR requirement and were unaware of the
variance in the JOFOC form language.

Recommendations
Recommendation 1: The Deputy Commissioner for Operations Support should use the
results of these 35 contract cases to reemphasize to IRS program office and procurement office
personnel the need to obtain proper approval, adequately justify noncompetitive awards, and
fully address FAR requirements prior to solicitation and award.
       Management’s Response: The IRS agreed with this recommendation and stated that
       the Deputy Commissioner for Operations Support will issue a communication to IRS
       employees on the need to obtain proper approval to adequately justify noncompetitive
       awards and follow appropriate FAR requirements prior to solicitation and contract
       awards.

                                                                                          Page 11
                        Better Adherence to Requirements Is Needed to
                     Justify and Document Noncompetitive Contract Awards



Recommendation 2: The Chief, Agency-Wide Shared Services, should use the results of
these 35 contract cases to ensure that periodic oversight reviews of contract files provide
increased focus on these areas to ensure CO compliance with FAR requirements for
noncompetitive contracts.
       Management’s Response: The IRS agreed with this recommendation and stated that
       the Chief, Agency-Wide Shared Services, will review the results of the 35 contract cases
       and determine where increased focus is necessary in periodic reviews of contract files to
       ensure CO compliance with FAR requirements for noncompetitive contracts.

Contract Data Were Miscoded in the Federal Procurement Data
System
We identified a list of all contracts awarded through other than full and open competition from
October 1, 2010, through May 31, 2013. In March 2007, the Office of Federal Procurement
Policy issued a memorandum that tasked all agency chief acquisition officers with establishing
processes to ensure that FPDS–NG data are accurate.
For 33 contracts in the FPDS–NG, the system showed the contract as being both over $150,000
in amount (in the contract award amount field) and under the $150,000 simplified acquisition
threshold (in the extent competed field), both of which could not be accurate. We reviewed three
of the 33 contract files and found that these contracts totaling $14.9 million were improperly
coded as being below the $150,000 threshold. We forwarded all 33 of these contract cases to the
IRS for review and appropriate adjustment to correct any miscoding.
When contracts are miscoded, the IRS does not have accurate data on the contracts it awards.
Complete, accurate, and timely Federal procurement data are essential for ensuring that the
Government has the right information when planning, awarding, and performing oversight on
Federal contracts.

Recommendation
Recommendation 3: The Chief, Agency-Wide Shared Services, should ensure that contracts
awarded during the audit period, and specifically the 33 that we identified through our analysis,
are reviewed to confirm that they were properly coded in the FPDS–NG.
       Management’s Response: The IRS agreed with this recommendation and stated that
       the Office of Procurement was previously provided the list of the 33 FPDS–NG entries in
       question and corrections were made where appropriate.




                                                                                          Page 12
                            Better Adherence to Requirements Is Needed to
                         Justify and Document Noncompetitive Contract Awards



                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS is in compliance with FAR1
requirements and other applicable authorities for noncompetitive contract awards. To achieve
our objective, we:
I.       Obtained an understanding of the statutory authority for contracting without providing for
         full and open competition and all acquisition planning policies, procedures, and practices
         the IRS uses to ensure compliance with the requirements, justifications, and approvals as
         required by FAR Subpart 6.3.
         A. Researched the FAR, Department of the Treasury regulations, and IRS policies and
            procedures regarding the requirements, justifications, and approvals for
            noncompetitive contracts.
         B. Interviewed Office of Procurement contracting personnel and program office staff to
            document the current process and the practices used to determine how
            noncompetitive contracts are justified and the documentation that is involved for
            supporting these procurements.
II.      Determined for a selection of contracts whether the IRS met FAR and other related
         requirements for awarding these noncompetitive procurements.
         A. Obtained from the FPDS–NG a population of new awards made from
            October 1, 2010, through May 31, 2013. We determined the number and dollar
            amount of awards the IRS made that were noncompetitively awarded. We assessed
            the reliability of the FPDS–NG computer-processed data by examining contract data
            fields such as the Procurement Instrument Identifier, type of contract, vendor name,
            and product or service description. We determined that the data were sufficiently
            reliable to use for our audit tests.
         B. Reviewed a nonrepresentative selection2 of 10 awards at or below the simplified
            acquisition threshold of $150,000 based on specific risk factors and determined if the
            contract file contained a written justification, in memorandum form, that provided
            clear and convincing evidence to support the exemption for other than full and open


1
  48 C.F.R. pts. 1–53. The FAR was established to codify uniform policies for acquiring supplies and services by
executive agencies.
2
  A nonrepresentative selection is a nonstatistical selection, the results of which cannot be used to project to the
population.
                                                                                                              Page 13
                            Better Adherence to Requirements Is Needed to
                         Justify and Document Noncompetitive Contract Awards



             competition. Five of these awards were selected randomly out of a universe of
             6,230 awards, and five of these awards were identified as potentially lacking
             appropriate justification through prior TIGTA work.3
         C. Reviewed a stratified random sample of 25 files out of a universe of 282 awards
            above the simplified acquisition threshold of $150,000 and determined whether the
            IRS complied with FAR 6.302 requirements, which require justification to support
            the use for other than full and open competition.4 These 25 files were selected to
            represent a cross-section of FAR exemption and approval categories.
         D. For the 25 contracts above the simplified acquisition threshold, determined whether
            the IRS complied with FAR 6.302 requirements, which require each justification to
            contain sufficient facts and rationale to justify the use of the specific authority cited.
         E. For the 25 contracts above the simplified acquisition threshold, determined whether
            the IRS complied with FAR 6.304 requirements, which require that the justification
            for other than full and open competition be approved in writing.
         F. If the selected noncompetitive contracts reviewed did not comply with FAR
            requirements, we followed up with relevant procurement officials, COs, contract
            officer representatives, and program officials to determine why FAR requirements
            were not followed.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: FAR Part 6, Subpart 6.3, Other Than Full
and Open Competition; FAR Part 10, Market Research Policy and Procedures; FAR Part 13,
Simplified Acquisition Procedures; and Department of the Treasury policies and procedures and
IRS internal policies and procedures pertaining to noncompetitive procurements. We evaluated
these controls by interviewing personnel, reviewing documentation, and reviewing 35 contract
files.


3
  TIGTA, Ref. No. 2013-10-037, Review of the August 2010 Small Business/Self-Employed Division’s Conference in
Anaheim, California (May 2013), identified questionable expenses related to IRS conferences and outside speakers.
4
  Contracts were divided into nonoverlapping strata. After each stratum was defined, simple random sampling was
used within each stratum. In some cases, we determined that the JOFOC form was not required because the
contracts were awarded through special contracting programs, such as the 8(a) Program. In these situations, we
replaced these contracts in our sample with contracts that did require the use of the JOFOC. Although our sample of
25 was randomly selected within the various strata we identified, we did not project the results of our analysis to the
entire population of noncompetitive contracts awarded during our audit period due to the small sample size.
                                                                                                              Page 14
                      Better Adherence to Requirements Is Needed to
                   Justify and Document Noncompetitive Contract Awards



                                                                            Appendix II

                Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Heather M. Hill, Audit Manager
Gene A. Luevano, Lead Auditor
James S. Mills, Jr., Senior Auditor
LaToya R. Penn, Senior Auditor
Dana Karaffa, Senior Audit Evaluator
Trisa Brewer, Auditor
Melvin Lindsey, Auditor




                                                                                    Page 15
                      Better Adherence to Requirements Is Needed to
                   Justify and Document Noncompetitive Contract Awards



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operation Support OS
       Deputy Commissioner for Services and Enforcement SE
       Chief, Agency-Wide Shared Services OS:A
       Director, Procurement OS:A:P




                                                                       Page 16
                        Better Adherence to Requirements Is Needed to
                     Justify and Document Noncompetitive Contract Awards



                                                                                  Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Protection of Resources – Potential; $13.2 million, the value of 15 contracts for which
    required approvals were not obtained, justifications were inadequate, or information in the
    contract file to support compliance with FAR requirements were not present. As a result,
    these awards did not comply with FAR requirements permitting other than full and open
    competition (see pages 7 and 8).

Methodology Used to Measure the Reported Benefit:
We reviewed 35 contract files out of 6,512 awards to determine whether required approvals were
timely obtained and determined that in five instances not all of the required approvals were
obtained. In two of those instances, the individual preparing the contract documentation did not
sign the appropriate contract award documents for inclusion in the contract file. In the other
three instances, an additional level of approval was required (beyond the individual preparing the
documentation) but was not obtained. We identified seven contracts that did not contain
adequate justification of the exception authority permitting other than full and open competition.
In addition, we reviewed 25 files to determine whether they included all 12 content elements
required by the FAR and determined that eight awards did not comply with at least one of these
required elements. If the IRS had issued these contracts through full and open competition, they
might have resulted in lower costs, although we could not determine the specific savings that
might have resulted from competition. We have included the entire value of these awards in this
outcome measure. Five contracts did not meet two of the requirements; however, we have only
counted each award once for the purpose of this outcome measure.

Type and Value of Outcome Measure:
   Reliability of Information – Actual; $14.9 million for three contracts for which the contract
    category was improperly coded (see page 12).




                                                                                            Page 17
                       Better Adherence to Requirements Is Needed to
                    Justify and Document Noncompetitive Contract Awards



Methodology Used to Measure the Reported Benefit:
We identified the universe of contracts awarded through other than full and open competition
from October 1, 2010, through May 31, 2013. During our review, we determined that at least
three of the contracts in our population, totaling approximately $14.9 million, were improperly
coded in the “Extent Competed” field as awarded noncompetitively because they were under the
micropurchase threshold or under the simplified acquisition threshold of $150,000 when they in
fact were not under those limits. IRS management advised that all three were coding errors and
that corrections were made in the FPDS–NG. The total value of the three miscoded contracts
was $14.9 million.




                                                                                        Page 18
                        Better Adherence to Requirements Is Needed to
                     Justify and Document Noncompetitive Contract Awards



                                                                                      Appendix V

             Federal Acquisition Regulation 6.303-2

The following elements are required by the FAR in a written justification for other than full and
open competition for awards above the simplified acquisition threshold of $150,000.

                       Federal Acquisition Regulation 6.303-2

 (a) Each justification shall contain sufficient facts and rationale to justify the use of the
     specific authority cited.
 (b) As a minimum, each justification shall include the following information:
       (1) Identification of the agency and the contracting activity, and specific identification
           of the document as a “Justification for other than full and open competition.”
       (2) Nature and/or description of the action being approved.
       (3) A description of the supplies or services required to meet the agency’s needs
           (including the estimated value).
       (4) An identification of the statutory authority permitting other than full and open
           competition.
       (5) A demonstration that the proposed contractor’s unique qualifications or the nature
           of the acquisition requires use of the authority cited.
       (6) A description of efforts made to ensure that offers are solicited from as many
           potential sources as is practicable, including whether a notice was or will be
           publicized as required by Subpart 5.2 and, if not, which exception under
           Subpart 5.202 applies.
       (7) A determination by the contracting officer that the anticipated cost to the
           Government will be fair and reasonable.
       (8) A description of the market research conducted (see Part 10) and the results or a
           statement of the reason market research was not conducted.
       (9) Any other facts supporting the use of other than full and open competition, such as:
            (i)   Explanation of why technical data packages, specifications, engineering
                  descriptions, statements of work, or purchase descriptions suitable for full
                  and open competition have not been developed or are not available.


                                                                                                 Page 19
                          Better Adherence to Requirements Is Needed to
                       Justify and Document Noncompetitive Contract Awards




              Federal Acquisition Regulation 6.303-2 (continued)

            (ii)   When 6.302-1 is cited for follow-on acquisitions as described in
                   6.302-1(a)(2)(ii), an estimate of the cost to the Government that would be
                   duplicated and how the estimate was derived.
            (iii) When 6.302-2 is cited, data, estimated cost, or other rationale as to the extent
                  and nature of the harm to the Government.
        (10) A listing of the sources, if any, that expressed, in writing, an interest in the
             acquisition.
        (11) A statement of the actions, if any, the agency may take to remove or overcome any
             barriers to competition before any subsequent acquisition for the supplies or
             services required.
        (12) Contracting officer certification that the justification is accurate and complete to
             the best of the contracting officer’s knowledge and belief.
 (c) Each justification shall include evidence that any supporting data that are the
     responsibility of technical or requirements personnel (e.g., verifying the Government’s
     minimum needs or schedule requirements or other rationale for other than full and open
     competition) and which form a basis for the justification have been certified as complete
     and accurate by the technical or requirements personnel.
Source: FAR 6.303-2.




                                                                                                Page 20
         Better Adherence to Requirements Is Needed to
      Justify and Document Noncompetitive Contract Awards



                                                 Appendix VI

Management’s Response to the Draft Report




                                                        Page 21
   Better Adherence to Requirements Is Needed to
Justify and Document Noncompetitive Contract Awards




                                                  Page 22
   Better Adherence to Requirements Is Needed to
Justify and Document Noncompetitive Contract Awards




                                                  Page 23
